NO.

IN THE
SUPREME COURT OF THE UNITED STATES
JOSHUA SCOTT RICHARDS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
APPENDIX
TO
PETITION FOR WRIT OF CERTIORARI

United States v. Richards, 958 F.3d 961 (2020)

958 F.3d 961
United States Court of Appeals, Tenth Circuit.

Virginia L. Grady, Federal Public Defender, and John C.
Arceci, Assistant Federal Public Defender, Denver, Colorado,
for Defendant-Appellant.

UNITED STATES of America, Plaintiff - Appellee,
v.
Joshua Scott RICHARDS, Defendant - Appellant.

Mark A. Klaassen, United States Attorney, and Timothy
J. Forwood, Assistant United States Attorney, Cheyenne,
Wyoming, for Plaintiff-Appellee.

No. 19-8044
|
FILED May 6, 2020

Before BACHARACH, BALDOCK, and MORITZ, Circuit
Judges.
Opinion

Synopsis
Background: Defendant was convicted, on guilty plea
entered in the United States District Court for the District of
Wyoming, No. 2:19-CR-00015-SWS-1, Scott W. Skavdahl,
J., of one count of accessing with intent to view child
pornography, and he appealed.

BALDOCK, Circuit Judge.
Defendant–Appellant Joshua Richards pleaded guilty to one
count of accessing with intent to view child pornography in
violation of
18 U.S.C. §§ 2252(a)(5)(B) and
(b)(2).
He received a sentence of twenty-four months’ imprisonment
followed by five years of supervised release. The district court
imposed several special conditions of supervised release,
which, as relevant here, relate to drugs and alcohol and
require Defendant to submit to polygraph testing. On appeal,
Defendant argues the district court erred in imposing these
special conditions. He also challenges the length of his
prison sentence as substantively unreasonable. Exercising

Holdings: The Court of Appeals, Baldock, Circuit Judge,
held that:
district court did not abuse its discretion in requiring
defendant, as condition of supervised release, to participate in
substance abuse treatment program;

jurisdiction under 28 U.S.C. § 1291 and
3742(a), we affirm.

condition of supervised release imposed on defendant, that he
submit to periodic polygraph testing, did not violate his Fifth
Amendment privilege against self-incrimination; and

18 U.S.C. §

I.

defendant failed to rebut the presumptive reasonableness of
below-Guidelines sentence of 24 months imposed by the
district court.

In 2018, the Wyoming Division of Criminal Investigation
(DCI) obtained a search warrant to review the contents
of Defendant’s Tumblr account. 1 During the search and
subsequent investigation, DCI agents discovered Defendant
had re-blogged videos and images of child pornography to
his private Tumblr account so he could later access and view
the materials. Ultimately, Defendant was charged with and
pleaded guilty to one count of accessing with intent to view

Affirmed.
Procedural Posture(s): Appellate Review; Sentencing or
Penalty Phase Motion or Objection.
*963 Appeal from the United States District Court
for the District of Wyoming (D.C. No. 2United States
District Court for the District of Wyoming (D.C. No. 2:19CR-00015-SWS-1)

child pornography in violation of
(B) and

18 U.S.C. §§ 2252(a)(5)

(b)(2).

The probation office prepared a Presentence Investigation
Report (PSR), which calculated Defendant’s total offense
level as twenty-eight and his criminal history *964 category
as I. According to the sentencing guidelines, Defendant’s total
offense level of twenty-eight and category I criminal history

Attorneys and Law Firms
Submitted on the briefs: *

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A1

1

United States v. Richards, 958 F.3d 961 (2020)

resulted in an advisory guidelines sentencing range of 78–
97 months’ imprisonment. Defendant moved for a downward
variance based on mitigating circumstances, including his
otherwise exemplary life, low risk to reoffend, commitment
to treatment, financial and caretaker responsibilities for his
wife and family, and history of suffering sexual abuse as
a child. These circumstances, Defendant argued, warranted
a variance to a time-served sentence. The Government,
however, requested a sentence of two years’ imprisonment.

any polygraph results or testing as
part of the sex offender program or
supervised release may not be used for
purposes of instituting or instigating
criminal charges. However, they may
properly be used for the prosecution
– or filing of a petition to revoke
supervised release. And that’s one of
the fundamental purposes that they are
properly utilized for.

At sentencing, the district court first declined to apply
a two-level enhancement for the use of a computer in
committing the offense. Applying this offset, the district court
advised that “a total offense level of 26 with a Criminal
History Category I ... establishes a 63- to 71-month advisory

Defendant objected to the modified condition on the same
grounds, and the district court again overruled the objection.

guideline range.” 2 After hearing the parties’ arguments and
“considering all the [§] 3553 factors,” the district court
determined “a sentence of 24 months is minimally sufficient
but not greater than necessary to accomplish the objectives
under [§] 3553.” Accordingly, the district court sentenced
Defendant to twenty-four months’ imprisonment plus five
years of supervised release.

Defendant now appeals. He argues the district court erred
in imposing the drug *965 and alcohol conditions, and
he contends the polygraph requirement encroaches upon
his Fifth Amendment privilege against self-incrimination.
In addition, Defendant argues his two-year sentence is
substantively unreasonable.

For the term of supervised release, the district court imposed
three special conditions relating to drugs and alcohol based on
Defendant’s “history of substance abuse.” These conditions
(1) require participation in a substance abuse treatment
program; (2) authorize drug and alcohol testing at the
probation office’s direction; (3) prohibit the consumption
or possession of alcohol and other intoxicants, and bar
Defendant from entering establishments whose primary
income is derived from alcohol sales. Defendant objected to
these conditions “given the remoteness of any [substance]
abuse.” The district court overruled Defendant’s objection,
noting “the background and history is such that it is
appropriate to impose those limitations and constraints.”

II.
On appeal, Defendant first challenges the district court’s
imposition of the special conditions of supervised release: (1)
relating to drugs and alcohol; and (2) requiring him to undergo
polygraph testing. We address each challenge in turn.

A.
Defendant argues the special conditions relating to drugs
and alcohol are unreasonable because any substance abuse
occurred nearly twenty years ago and is too remote to
support the conditions. Because Defendant objected to these
special conditions at sentencing, we review the district court’s
decision to impose the conditions for abuse of discretion.

The district court also imposed a special condition requiring
Defendant to submit to periodic polygraph testing to ensure
compliance with his supervised release and sex offender
treatment program. Defendant objected to this condition on
Fifth Amendment grounds. He argued the district court should
include language protecting Defendant’s privilege against
self-incrimination and ensuring no violation proceedings or
criminal prosecutions would arise based on the polygraph
examination. The district court overruled the objection, but it
did modify the condition and ordered that:

United States v. Wayne, 591 F.3d 1326, 1331 (10th Cir.
2010). “[W]e will not disturb the district court’s ruling absent
a showing it was based on a clearly erroneous finding of fact
or an erroneous conclusion of law or manifests a clear error
of judgment.”
United States v. Bear, 769 F.3d 1221, 1226
(10th Cir. 2014) (quoting United States v. Batton, 602 F.3d
1191, 1196 (10th Cir. 2010)).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A2

2

United States v. Richards, 958 F.3d 961 (2020)

While a district court has broad discretion in fashioning
special conditions of supervised release, Congress has limited

In explaining his criminal conduct during his psychosexual
evaluation, Defendant “talk[ed] about alcoholism ‘running in
the family’ ” and how “he assumed he could deal with his
frustration by looking at pornography rather than drinking.”
Defendant admitted “[p]ornography use had become a daily
practice for him in the months previous to his criminal
investigations[,]” and he “supposed that pornography would
not develop into anything that would cause him legal
problems, nor that it would be addictive to him.” Moreover,
in a letter to the district court, Defendant’s wife corroborated
these statements by indicating she was “thankful that
[Defendant] turned to porn rather than alcohol and/or drugs”
as “an outlet for his stress[.]”

this discretion in 18 U.S.C. § 3583(d). Wayne, 591 F.3d
at 1331–32. Such conditions must be reasonably related to
one of the following sentencing factors: (1) the nature and
circumstances of the offense and the defendant’s history and
characteristics; (2) the deterrence of criminal conduct; (3) the
protection of the public from further crimes by the defendant;
and (4) the defendant’s educational, vocational, medical,
or other correctional needs.

Id. (citing

18 U.S.C. §§

3583(d)(1), 3553(a)(1), (a)(2)(B)–(D)). The conditions
also must involve “no greater deprivation of liberty than
is reasonably necessary” to deter criminal activity, protect
the public, and promote the defendant’s rehabilitation.

Given Defendant’s past substance abuse in combination
with the evidence concerning his decision to use child
pornography rather than alcohol to deal with his frustration,
the challenged conditions are reasonably related to his
history and characteristics. Further, contrary to Defendant’s
argument, the special conditions are not inconsistent with the
sentencing guideline’s policy statement for substance abuse.

18

§§ 3553(a)(2)(B)–(D)). And
U.S.C. § 3583(d)(2) (citing
the conditions must be “consistent with any pertinent policy
statements issued by the Sentencing Commission.”
3583(d)(3).

Id. §

See
U.S.S.G. § 5D1.3(d)(4) (recommending treatment
and use conditions “if the court has reason to believe that
the defendant is an abuser of narcotics, other controlled
substances or alcohol[,]” but also providing such conditions
“may otherwise be appropriate in particular cases”). Based on
Defendant’s history and background, the district court could
have reasonably concluded conditions preventing further use
of drugs and alcohol will help ensure Defendant does not
trade one vice for another and that he will remain on the
path to rehabilitation during his supervised release. Because
the alcohol and drug conditions do not directly conflict with
the relevant policy statement in the sentencing guidelines,
the district court’s decision to impose the conditions was

On the record before us, we cannot say the district court
abused its discretion or manifested a clear error of judgment
in imposing the challenged conditions relating to drugs and
alcohol. It is true no drugs or alcohol were involved in
the offense of conviction, and Defendant has never sought
treatment for substance abuse. But the record reflects, and
Defendant does not dispute, that he does have a history of
substance abuse. See
United States v. Jordan, 485 F.3d
982, 984–85 (7th Cir. 2007) (explaining drug and alcohol
treatment and use conditions “are not necessarily reserved
only for individuals with extensive personal histories of drug
or alcohol abuse”).

not manifestly unreasonable. See
Bear, 769 F.3d at 1230
(explaining § “3583(d)(3) mandates only that the conditions
not directly conflict with the policy statements”).

Based on the PSR alone, Defendant’s drug and alcohol
problems may appear divorced from the current offense and
remote in time. But these were not the only facts before
the district court. The evidence in the record regarding
Defendant’s decision to use child pornography instead
of alcohol to deal with his frustration and stress rebuts
the assertion that his history of substance abuse is too
temporally remote to support the challenged conditions.

B.
We next address Defendant’s argument regarding the district
court’s inclusion of periodic polygraph testing as a special
condition of his supervised release. Because Defendant
argues, as he did in the district court, the polygraph condition
violates his Fifth Amendment right against self-incrimination,

Cf.
United States v. Ford, 882 F.3d 1279, 1288 (10th
Cir. 2018) (explaining defendant’s background supported
conclusion a nineteen-year-old sex crime conviction was
*966 reasonably related to the imposition of sex offender
conditions at sentencing for a non-sex crime).

we review his challenge de novo.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A3

United States v. Von

3

United States v. Richards, 958 F.3d 961 (2020)

Behren, 822 F.3d 1139, 1143–44 (10th Cir. 2016) (explaining
we review de novo matters of constitutional law). Thus, “we
will take a ‘fresh, independent’ look at the question at bar.”

may not constitutionally impose.”
1150.

Von Behren, 822 F.3d at

We recently addressed the compulsion element of a Fifth

Id. at 1144 (quoting United States v. Rivas–Macias, 537
F.3d 1271, 1276 (10th Cir. 2008)).

United States v. Von Behren, where
Amendment claim in
a condition of supervised release required the defendant
to answer four specific, incriminating questions about his

The special condition Defendant challenges requires him “to
submit to periodic polygraph testing as a means to ensure that
he is in compliance with the requirements of his[ ] supervision
or treatment program.” While “[t]he results of such polygraph
testing cannot be used against [Defendant] in a new criminal
proceeding, [they] can be used in a violation proceeding in
this criminal case.” Defendant argues this condition violates
the Fifth Amendment because it authorizes revocation of his
supervised release based on a valid invocation of his privilege
against self-incrimination.

past sexual activity.
Id. at 1145. There, the “government
asserted ... it would seek Mr. Von Behren’s remand to prison
if he refused to answer [the] incriminating sexual polygraph
questions because that refusal would (and did) ultimately
result in his termination from the sex offender treatment
program.”
Id. at 1150. We held this “threat constituted
unconstitutional compulsion within the meaning of the Fifth
Amendment.”

“To qualify for the Fifth Amendment privilege, a
communication must be testimonial, incriminating, and

Id.

In reaching our conclusion, we distinguished the facts
in Mr. Von Behren’s case from those in
Minnesota
v. Murphy, where the Supreme Court concluded no

compelled.”
Id. (quoting
*967 Hiibel v. Sixth
Judicial Dist. Court of Nevada, Humboldt County, 542
U.S. 177, 189, 124 S.Ct. 2451, 159 L.Ed.2d 292 (2004)).
“There is no doubt that answering questions during a
polygraph examination involves a communicative act which

unconstitutional compulsion existed.

822 F.3d at 1149–

Murphy, 465 U.S. at 436–39, 104 S.Ct.
51; accord
1136. “Fifth Amendment jurisprudence did not apply to Mr.
Murphy[,]” we explained, “because his probation officer
neither affirmatively stated nor implied that Mr. Murphy’s
assertion of the privilege would result in the revocation

is testimonial.”
Id. And, as the Government recognizes,
the polygraph examination to which Defendant must submit
might elicit potentially incriminating statements that could
“provide a ‘lead’ or ‘a link in the chain of evidence needed

of his probation.”

to prosecute the’ speaker.”
Id. at 1145 (quoting
United
States v. Powe, 591 F.2d 833, 845 n.36 (D.C. Cir. 1978)).
After all, the purpose of a polygraph test is not to elicit
honest responses to innocuous questions such as, for example,
whether Defendant enjoyed his morning coffee.

Von Behren, 822 F.3d at 1149 (citing

Murphy, 465 U.S. at 437–38, 104 S.Ct. 1136). “In other
words, there was no threat.”

Id.

The Supreme Court’s decision in

Murphy and our

The polygraph condition at issue, however, fails to satisfy
the compulsion element of Defendant’s Fifth Amendment
claim. The Supreme Court has held that if the “state, either
expressly or by implication, asserts that invocation of the
privilege would lead to revocation of probation, it would have
created the classic penalty situation, the failure to assert the
privilege would be excused, and the probationer’s answers
would be deemed compelled and inadmissible in a criminal

analysis in
Von Behren make this issue an easy one to
resolve. Here, neither the Government nor any other entity
has threatened—explicitly or by implication—to revoke
Defendant’s supervised release if he refuses to answer a
question during a polygraph examination on valid Fifth
Amendment grounds. Nothing in the record suggests the
Government has attempted or intends “to take the extra,
impermissible step” of compelling Defendant to incriminate

prosecution.”
Minnesota v. Murphy, 465 U.S. 420, 435,
104 S.Ct. 1136, 79 L.Ed.2d 409 (1984). Put another way, “a
threat to revoke one’s probation for properly invoking his
Fifth Amendment privilege is the type of compulsion the state

himself. See
Murphy, 465 U.S. at 436, 104 S.Ct. 1136.
To the contrary, the Government affirms in its brief that
“Defendant faces no risk of revocation based on validly
asserting his privilege[ ] because such a revocation would be
unlawful.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A4

4

United States v. Richards, 958 F.3d 961 (2020)

the challenged polygraph condition facially violates the Fifth
Amendment. We conclude it does not.

Nor does the polygraph condition, on its face, spell out
that forbidden penalty. The condition provides “[t]he results
of [Defendant’s] *968 polygraph testing ... can be used
in a violation proceeding in this criminal case.” It does
not follow from this language, however, that the condition
permits revocation of Defendant’s supervised release based
on his refusal to answer polygraph questions on valid Fifth
Amendment grounds. We do not read the district court’s
order to allow—much less endorse—the imposition of such a

III.
Defendant’s final argument on appeal is that the twenty-four
month sentence the district court imposed is substantively
unreasonable. We review the substantive reasonableness of
a sentence under a deferential abuse-of-discretion standard.
United States v. Cookson, 922 F.3d 1079, 1090–91 (10th
Cir. 2019). The district court abuses its discretion when it
imposes a sentence that is “arbitrary, capricious, whimsical,
or manifestly unreasonable” given “all the circumstances of

plainly unconstitutional penalty. Cf. United States v. Mike,
632 F.3d 686, 696 (10th Cir. 2011) (interpreting conditions of
supervised release narrowly so as not to implicate significant
liberty interests); see also
United States v. Davis, 242
F.3d 49, 52 (1st Cir. 2001) (per curiam) (construing special
condition of supervised release to avoid Fifth Amendment
concerns).

the case in light of the factors set forth in

18 U.S.C. §

3553(a).” Id. (quoting United States v. Friedman, 554 F.3d
1301, 1307 (10th Cir. 2009)).

While Defendant would have preferred the polygraph
condition to include language ensuring the implementation
of this requirement will comply with the Fifth Amendment,
the absence of such limiting language does not render the

Applying the sentencing guidelines, the district court
determined Defendant’s total offense level of twenty-six
and his criminal history category of I established an
advisory guidelines range of 63–71 months’ imprisonment.
But the district court sentenced Defendant to 24 months’
imprisonment, an amount below the advisory guidelines
range, based on the circumstances of the case. We apply
a “rebuttable presumption of reasonableness to a belowguideline sentence challenged by the *969 defendant as
unreasonably harsh.” United States v. Balbin–Mesa, 643
F.3d 783, 788 (10th Cir. 2011). Defendant may rebut this
presumption by demonstrating the sentence is unreasonable

condition unconstitutional or otherwise infirm. See United
States v. Pabon, 819 F.3d 26, 29, 34 (1st Cir. 2016)
(concluding polygraph-testing condition without limiting
language did not violate the Fifth Amendment because
it did not require the defendant to answer incriminating
questions);
United States v. Lee, 315 F.3d 206, 212 (3d
Cir. 2003) (same). The Fifth Amendment—not the terms of a
special condition—guarantees Defendant’s privilege against
self-incrimination. Accordingly, Defendant remains free to
legitimately exercise his Fifth Amendment right without
facing the risk that a valid assertion of his privilege and refusal
to incriminate himself during a polygraph examination will
result in revocation of his supervised release.

when viewed against the factors described in
§ 3553(a).
See United States v. Craig, 808 F.3d 1249, 1261 (10th Cir.
2015).
As a preliminary matter, Defendant argues (only to preserve
the issue) that his sentence is manifestly unreasonable because

If, at a later date, the Government changes its position and
threatens to revoke Defendant’s supervised release based on
his valid invocation of his privilege against self-incrimination
during a polygraph examination, Defendant may raise a

U.S.S.G. § 2G2.2, the relevant sentencing guideline for
Defendant’s offense, is inherently flawed and lacks an
empirical basis. We have previously heard and rejected
this argument. United States v. Blair, 933 F.3d 1271, 1274
(10th Cir. 2019). Thus, regardless of the alleged lack of

Fifth Amendment challenge at that time. See
United
States v. Zinn, 321 F.3d 1084, 1089 (11th Cir. 2003) (“By
determining a challenge to the polygraph testing requirement
to be generally ripe, however, we do not imply that all
specific challenges to the implementation of this condition
are necessarily ripe.”). But until such an eventuality occurs
(and hopefully it never does), we can only decide whether

empirical support for
§ 2G2.2, we apply the presumption
of reasonableness to Defendant’s sentence. Id.
Defendant contends the district court failed to give sufficient
weight to, among other things, his lack of criminal history and
the fact a shorter period of incarceration would have afforded

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A5

5

United States v. Richards, 958 F.3d 961 (2020)

highlights on appeal are insufficient to rebut the presumption
of reasonableness we must apply to his below-guideline
sentence. We thus conclude, given all the circumstances of the
case, the district court did not abuse its discretion in weighing

adequate deterrence because he had never before served any
time in custody. We disagree. The district court accounted for
various mitigating factors, including Defendant’s otherwise
law-abiding life, his history of suffering sexual abuse as a
child, and the limited period of offense conduct. And based
on these mitigating circumstances, the district court varied
significantly downward.

§ 3553(a) factors and imposing a sentence of twentythe
four months’ imprisonment.
***

But the district court also determined the nature and
circumstances of the offense—namely, the amount and types
of child pornography Defendant accessed—were important
factors that weighed in favor of a custodial sentence. As
the court explained, Defendant’s behavior “is victimizing,
it is troubling, and it’s behavior that deserves and requires
punishment.” In short, the personal characteristics Defendant

For the foregoing reasons, we AFFIRM the judgment of the
district court.
All Citations
958 F.3d 961

Footnotes
*

1

2

After examining the briefs and appellate record, this panel has determined unanimously to honor the parties’
request for a decision on the briefs without oral argument. See Fed. R. App. P. 34(f); 10th Cir. R. 34.1(G).
The case is therefore submitted without oral argument.
Tumblr is an online microblogging and social media website where users post images, videos, text, and other
content to their user profiles. Tumblr users can also, as Defendant did with the child pornography he found
on the website, “reblog” posted material to their private Tumblr account so they can conveniently access it
at any time.
As Defendant correctly points out, the upper end of the advisory guidelines sentencing range for a total
offense level of 26 and criminal history category of I is 78 months, not 71 months. See U.S.S.G. Ch. 5, Pt.
A, Sentencing Table. The district court’s misstatement in announcing the advisory guideline range, however,
is of no consequence in our resolution of this appeal.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A6

6

FEDERAL PROVISIONS INVOLVED
§ 2G2.2. Trafficking in Material Involving the Sexual Exploitation of a Minor;
Receiving, Transporting, Shipping, Soliciting, or Advertising Material
Involving the Sexual Exploitation of a Minor; Possessing Material
Involving the Sexual Exploitation of a Minor with Intent to Traffic;
Possessing Material Involving the Sexual Exploitation of a Minor
(a) Base Offense Level:
(1) 18, if the defendant is convicted of 18 U.S.C. § 1466A(b), § 2252(a)(4),
§ 2252A(a)(5), or § 2252A(a)(7).
(2) 22, otherwise.
(b) Specific Offense Characteristics
(1) If (A) subsection (a)(2) applies; (B) the defendant’s conduct was
limited to the receipt or solicitation of material involving the
sexual exploitation of a minor; and (C) the defendant did not
intend to traffic in, or distribute, such material, decrease by
2 levels.
(2) If the material involved a prepubescent minor or a minor who
had not attained the age of 12 years, increase by 2 levels.
(3) (Apply the greatest):
(A)

(B)

If the offense involved distribution for pecuniary gain,
increase by the number of levels from the table in
§ 2B1.1 (Theft, Property Destruction, and Fraud)
corresponding to the retail value of the material, but by
not less than 5 levels.
If the defendant distributed in exchange for any valuable
consideration, but not for pecuniary gain, increase by
5 levels.

A7

(C)

If the offense involved distribution to a minor, increase
by 5 levels.

(D)

If the offense involved distribution to a minor that was
intended to persuade, induce, entice, or coerce the
minor to engage in any illegal activity, other than illegal
activity covered under subdivision (E), increase by
6 levels.

(E)

If the offense involved distribution to a minor that was
intended to persuade, induce, entice, coerce, or facilitate
the travel of, the minor to engage in prohibited sexual
conduct, increase by 7 levels.

(F)

If the defendant knowingly engaged in distribution,
other than distribution described in subdivisions (A)
through (E), increase by 2 levels.

(4) If the offense involved material that portrays (A) sadistic or
masochistic conduct or other depictions of violence; or
(B) sexual abuse or exploitation of an infant or toddler,
increase by 4 levels.
(5) If the defendant engaged in a pattern of activity involving the
sexual abuse or exploitation of a minor, increase by 5 levels.
(6) If the offense involved the use of a computer or an interactive
computer service for the possession, transmission, receipt, or
distribution of the material, or for accessing with intent to view
the material, increase by 2 levels.
(7) If the offense involved—
(A) at least 10 images, but fewer than 150, increase by 2 levels;
(B) at least 150 images, but fewer than 300, increase by
3 levels;

A8

(C) at least 300 images, but fewer than 600, increase by
4 levels; and
(D) 600 or more images, increase by 5 levels.
...

A9

